No. ______

IN THE

SUPREME COURT OF THE UNITED STATES
ADAM FRASCH,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida First District Court of Appeal

APPENDIX TO
PETITION FOR WRIT OF CERTIORARI

MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER
A-1

TABLE OF CONTENTS
Document
1.

Page

June 22, 2020, order of the
Supreme Court of Florida . . . . . . . . . . . A-3

2.

September 25, 2019, opinion of the
Florida First District Court of Appeal . . . A-5

3.

Excerpt of January 26, 2017,
Trial and Sentencing Transcript . . . . . . A-27

4.

February 6, 2017, Defendant’s Motion
for New Trial. . . . . . . . . . . . . . . . . . . . . . A-37

5.

February 23, 2017, Order Denying
Defendant’s Motion for New Trial . . . . . A-46

A-2

Supreme Court of Florida
MONDAY, JUNE 22, 2020
CASE NO.: SC19-1832
Lower Tribunal No(s).:
1D17-754;
372014CF003426AXXXXX
ADAM FRASCH

vs.

STATE OF FLORIDA

_________________________________________________
Petitioner(s)

Respondent(s)

This cause having heretofore been submitted to
the Court on jurisdictional briefs and portions of the
record deemed necessary to reflect jurisdiction under
Article V, Section 3(b), Florida Constitution, and the
Court having determined that it should decline to
accept jurisdiction, it is ordered that the petition for
review is denied.
No motion for rehearing will be entertained by
A-3

the Court. See Fla. R. App. P. 9.330(d)(2).
CANADY, C.J., and POLSTON, LABARGA, LAWSON,
and MUÑIZ, JJ.,
concur.
A True Copy
Test:

[seal of
Supreme

[signature of John A. Tomasino]

Court of the

John A. Tomasino

State of

Clerk, Supreme Court

Florida]

db
Served:
VIRGINIA HARRIS
MICHAEL UFFERMAN
HON. GWEN MARSHALL, CLERK
HON. JAMES C. HANKINSON, JUDGE
HON. KRISTINA SAMUELS, CLERK
A-4

FIRST DISTRICT COURT OF APPEAL
STATE OF FLORIDA
_____________________________
No. 1D17-754
_____________________________
ADAM FRASCH,
Appellant,
v.
STATE OF FLORIDA,
Appellee.
_____________________________
On appeal from the Circuit Court for Leon County.
James C. Hankinson, Judge.
September 25, 2019
PER CURIAM.
A jury convicted Appellant of murdering his
wife. He is serving a life sentence in prison for
first-degree murder, and this is his direct appeal. He
A-5

asserts the trial court reversibly erred in three
respects: (1) by denying Appellant’s motion for new
trial without conducting an evidentiary hearing; (2) by
allowing the State to introduce hearsay evidence; and
(3) by denying Appellant’s motion to withdraw a
formerly-exercised peremptory challenge. After careful
consideration, we reject Appellant’s arguments and
affirm his judgment and sentence.1
(1) Denial of Motion for New Trial.
We review the trial court’s ruling on the
new-trial motion for abuse of discretion. Tunidor v.
State, 221 So. 3d 587, 603 (Fla. 2017). “In order to
demonstrate abuse, the nonprevailing party must
establish that no reasonable person would take the
view adopted by the trial court.” Id. (quoting Stephens

1

Judge Winokur was substituted on the panel after Judge
Winsor was appointed to the federal bench, and has viewed the
oral argument video.

A-6

v. State, 787 So. 2d 747, 754 (Fla. 2001)).
Appellant alleged a Brady2 violation as grounds
for a new trial. To establish a Brady violation,
Appellant had to show the evidence was favorable to
him, either because it was exculpatory or because it
was impeaching; the State suppressed the evidence,
either willfully or inadvertently; and prejudice
resulted. Floyd v. State, 902 So. 2d 775, 779 (Fla. 2005)
(citing Carroll v. State, 815 So. 2d 601, 619 (Fla.
2002)). The alleged Brady violation involved a
statement purported to be from the victim’s family,
apparently in Madagascar, the victim’s home country.
Evidence at trial indicated that the victim had no
family in the United States, and that her family had
never visited her here. At sentencing, the prosecutor
explained that the family statement was unsigned, had
2

Brady v. Maryland, 373 U.S. 83 (1963) (recognizing
prosecutors’ obligation to disclose material evidence).

A-7

been roughly translated from the original language,
and the family wanted it to be read at sentencing.
Without objection or comment from the defense, the
prosecutor read the statement into the record, as
follows:
For us, the Frasch – well, it says,
For us, the Samira family [referencing
the

victim’s

first

name],

we

hold

[Appellant] responsible for the death of
Samira. According to Samira, she was
very afraid that [Appellant] would hurt
her, because she had noticed the presence
of someone prowling in their home nights
before his (sic) death.
As [Appellant] came to see the
house, certainly she had to tell him her
fears. So, why did [Appellant] not do
A-8

anything to avoid the worst? At least he
would have checked the surveillance
cameras in their home.
Why was Samira not with him on
the day of her death when they went to
the beach? Samira would not have
accepted that [Appellant] was busy. We
all know that [Appellant] had abducted
their two girls and left with his mistress,
so why the day of her death did
[Appellant] supposedly meet [the mother
of one of his other children] en route
before going to the beach?
Samira’s body was found in the
pool. Certainly, it does not – it was not
there to swim that day if she would part
with her children and her husband at the
A-9

beach. Why did [Appellant] rush to
cremate the body of Samira?
There are so many that lead us to
say that [Appellant] is responsible for the
murder of Samira. Whether he murdered
her or he is the sponsor. And we are
certain that he could never take care of
the two daughters he had with Samira.
Appellant argued below that he was entitled to
an evidentiary hearing on his Brady claim. He argued
that the family statement should have been disclosed,
was favorable to him and would have resulted in a
different verdict, he could not have discovered it
earlier, and he was prejudiced by not having received
it. The trial court declined to hold an evidentiary
hearing, explaining its ruling as follows:
The defense cites to an offhand comment
A-10

in a very confused, rambling dissertation
from

some

“family

member.”

This

statement was a rough translation. It is
unlikely that the “family member” even
resides in the United States and,
therefore, is not even available to be
subpoenaed. There is nothing suggesting
there is undisclosed information that
would have resulted in a different verdict.
Appellant argues that the family statement
might have been mis-translated, and that it is not clear
who wrote it or where the author(s) lived. His primary
substantive claim is that if he could have investigated
the reference to a prowler in the marital home, he
could have developed an argument that someone else
murdered the victim.
We conclude that the trial court did not abuse its
A-11

discretion in rejecting Appellant’s arguments. The
unanswered questions about the family statement
leave it worthless as evidence or as a source of
evidence. Appellant does not argue that he definitely or
even likely could have found answers to all of the
unknowns about the statement, nor that those answers
would favor him. The statement is not favorable to
Appellant, as it clearly blames him for the victim’s
death and asserts that the victim was afraid of him
primarily, not of a prowler.
Appellant’s claim that he could have developed
an unknown prowler as the real killer is speculative,
and he could have discovered any video evidence
earlier. If the marital home had a video security
system, as the statement indicates and as would be
expected in the high-end home of a very wealthy family
in a high-end, gated subdivision, Appellant as owner
A-12

and former occupant of that home would have known
that all along, and could have obtained any relevant
surveillance footage and images in the course of
preparing his defense. What he might have obtained
would not necessarily have benefited him. Further, at
trial, Appellant did argue that someone else killed the
victim, including a landscaper who discovered the
victim’s body and incorrectly testified that he was at
the house with the victim and children the day before
the murder. Appellant also argued at trial that because
doors to the home were found to be unlocked on the
morning the victim’s body was discovered, someone
else could have accessed the house and the victim. The
jury rejected his arguments, as did the trial court. We
find that the trial court did not abuse its discretion in
rejecting this argument for a new trial.
(2) Admission of Evidence.
A-13

We review a trial court’s ruling on the
admissibility of evidence for abuse of discretion, but
whether a statement falls within the statutory
definition of hearsay is a question of law reviewed de
novo. Powell v. State, 99 So. 3d 570, 573 (Fla. 1st DCA
2012).
The trial court allowed the State to introduce
testimony of the victim’s personal assistant, who
claimed that he heard a heated conversation that the
victim put on speakerphone. He heard the victim say
to the other person, “You are my husband”; and heard
the other person say, “I will kill you.” Appellant
argues,

as

he

did

below,

that

the

witness’s

identification of Appellant as the other person on the
phone was hearsay because it was introduced for the
truth of the assertion; and that the death threat, even
if an admission under section 90.803(18) of the Florida
A-14

Statutes, was predicated on the inadmissible hearsay,
and thus both statements should have been excluded.
The trial court rejected both parts of Appellant’s
argument. The court ruled that “You are my husband”
was not hearsay because it was not being offered for
the truth of the matter asserted—that is, not to
establish marital status—but rather as evidence of the
identity of the other person. Even if that ruling was
erroneous, however, we reject the argument that it
entitles Appellant to a new trial. The victim’s
assertion, in context, would be expected to draw a
denial if it were not true, and the other speaker’s
failure to deny being the victim’s husband can be
deemed an adoptive admission by Appellant. See
Hernandez v. State, 979 So. 2d 1013, 1016–17 (Fla. 3d
DCA 2008) (relying on Globe v. State, 877 So. 2d 663,
672-73 (Fla. 2004), for rule that another individual’s
A-15

statements are admissible as defendant’s adoptive
admissions where the context indicates defendant
could have been expected to deny the statements if
they were untrue).
More importantly, taken in full context, we
cannot conclude that any error was prejudicial. See
State v. DiGuilio, 491 So. 2d 1129, 1135 (Fla. 1986)
(“The harmless error test . . . places the burden on the
State, as the beneficiary of the error, to prove beyond
a reasonable doubt that the error complained of did not
contribute to the verdict, or, alternatively stated, that
there is no reasonably possibility that the error
contributed to the conviction.”). The victim’s statement
that “You are my husband” was not the only indicator
that Appellant was the other person on the call. The
witness also testified that the nature of the entire
conversation supported the conclusion that it was
A-16

between the victim and Appellant. Defense counsel
impeached this witness by eliciting his admissions that
he had only worked for the victim for about two weeks
and had never seen or heard Appellant. The jury was
free to accept or reject the testimony.
Appellant

cannot

demonstrate

that

this

testimony alone made any difference in the outcome of
his trial. Substantial additional evidence supported the
verdict, including, but not limited to, the following. The
parties

had

a

tumultuous

and

even

violent

relationship, which Appellant did not dispute; he
admitted they fought frequently. The victim had
obtained a domestic-violence injunction against
Appellant, and had recently been awarded the primary
marital house and custody of the children in
contentious divorce proceedings. Appellant also
admitted they had argued the night before the murder.
A-17

This was substantiated by video recorded outside a car
service location where the couple stopped to pick up the
victim’s vehicle after having spent the day visiting
multiple additional homes owned by Appellant so the
victim could determine whether any of Appellant’s
girlfriends had disturbed or taken the victim’s
belongings. Video from the subdivision entry gate then
showed Appellant’s car following the victim’s car into
the neighborhood late on the night before the murder.
Appellant admitted the couple had spent most of the
night fighting, including about other women. The
subdivision gate video then showed Appellant’s car
leaving a few hours before the victim’s body was found.
The victim’s dead body was found at the bottom
of the marital home’s swimming pool. Even Appellant
admitted the victim could not swim. She had
significant blunt trauma injuries to her head and a
A-18

massive skull fracture, which the medical examiner
testified could not have come from tripping and falling,
nor from a single blow with a fist. The victim also had
bruising on her arms and hands. Appellant was much
larger than the victim, and had been training as a
boxer

for

several

months

before

the

murder.

Appellant’s DNA was under the victim’s fingernails.
Appellant had a fresh scratch on his face the day of the
murder, and injuries to his hands. He claimed at first
that the victim had been drinking heavily that night,
but toxicology results showed that claim to have been
a complete lie. The autopsy indicated the victim was
alive, but likely incapacitated from her head injuries,
when her body entered the pool.
In addition, Appellant’s cellmate—whom the
defense impeached with evidence of some forty prior
felony convictions—testified that Appellant admitted
A-19

to the killing and provided details consistent with the
evidence. Specifically, the cellmate testified that
Appellant said he hit the victim with a golf club and
threw her in the pool. The victim’s DNA was found on
a golf club at the home.
The jury also heard substantial evidence of
Appellant’s post-murder actions that would support a
guilty verdict. At 7:30 the morning of the murder, a
neighbor heard a car alarm go off at the Frasch home
and saw someone in a red shirt loading up the back of
a dark SUV—the type and coloring of Appellant’s
vehicle. The subdivision gate video showed a vehicle
matching the appearance of Appellant’s car leaving at
8:00 the morning of the murder. Appellant admitted he
took the two children, of whom he did not have
custody, to Panama City the morning of the murder.
After a friend called and told Appellant that the victim
A-20

had been found dead in the pool, Appellant left voice
mails for the victim asking her to call him—but he did
not call law enforcement, start back to Tallahassee, or
otherwise attempt to confirm her status. Also after
having been told that his wife was dead, Appellant
called a man who performed maintenance on one of
Appellant’s boats in south Florida and said that “a
serious problem” had come up. While being interviewed
by law enforcement later that same day, Appellant
knew and related details about the scene around the
pool that could not have occurred until immediately
before the victim’s death, and that law enforcement
had not told him.
It was for the jury to weigh all of this evidence
of Appellant’s guilt, which was voluminous and from
multiple sources. As such, even if the personal
assistant’s testimony about specific words spoken on
A-21

one phone call was improperly admitted, any error was
harmless.
(3) Denial of Belated Withdrawal of Peremptory
Challenge.
We review for abuse of discretion the trial
court’s

denial

of

a

motion

to

withdraw

a

formerly-exercised peremptory strike. McCray v. State,
220 So. 3d 1119, 1122 (Fla. 2017). The Florida
Supreme Court in McCray rejected a blanket rule
prohibiting a belated withdrawal of a peremptory
challenge, recognizing that it may be appropriate in
“rare circumstances.” Id. at 1126 (“[T]here may be rare
circumstances where the withdrawal of a peremptory
challenge after the party has exhausted all peremptory
challenges may be appropriate.”). The court also
recognized the potential of misusing this “rare”
possibility for improper gamesmanship. Id.
A-22

On the facts of this case, we conclude the trial
court did not abuse its discretion. The defense used the
sixth of its ten peremptory strikes against a
prospective juror. Jury selection continued until five
jurors had been selected. The defense then asked the
trial court to allow it to withdraw its strike of the
earlier juror, and instead use that strike against a new
prospective juror, which would have made the earlier
juror the sixth and final juror other than alternates.
The trial court asked the defense for an explanation,
noting that the belated withdrawal would deprive the
prosecution of its ability to exercise strategic decisions
on jurors already seated. Defense counsel argued that
he had erroneously thought the earlier juror had
previously served on a jury and struck her for that
reason, but it turned out he was mistaken. The
prosecutor undermined that stated defense rationale,
A-23

pointing out that two other jurors whom the defense
had accepted had previously served on juries. The trial
court declined to allow the belated back-strike,
reasoning as follows:
[T]he problem is it changes the strategy
significantly. I mean, if it was just the
last strike, there’s no question I would let
you go back and change, but to let it go as
far as we did and then change. ... I’m not
going to allow you to withdraw your
strike. I just think it’s so late in the
game. I know how attorneys try to
develop a game plan down the road and I
would just be letting you change the
game plan. I just – I don’t think that
would be fair. I’m not aware of any law on
the subject, one way or another, so I’m
A-24

not going to allow you to withdraw the
strike at this point in time.
The trial court researched the issue during a
subsequent break, and advised the parties that the
ruling was left to the court’s discretion based on the
Fourth District’s decision in McCray v. State, 199 So.
3d 1006 (Fla. 4th DCA 2016). Although the Florida
Supreme Court rendered its decision after trial
rejecting the blanket-rule approach of the Fourth
District’s McCray

decision,

the

supreme court

continued to embrace an abuse of discretion standard
for this issue. 220 So. 3d at 1122. On the facts
presented, and for the reasons the trial judge
explained, we find no abuse of discretion.

AFFIRMED.
ROBERTS, KELSEY, and WINOKUR, JJ., concur.
_____________________________
A-25

Not final until disposition of any timely
and authorized motion under Fla. R. App.
P. 9.330 or 9.331.
_____________________________
Michael Ufferman of Michael Ufferman Law Firm,
P.A., Tallahassee, for Appellant.

Ashley Moody, Attorney General; and Virginia Chester
Harris, Assistant Attorney General, Tallahassee, for
Appellee.

A-26

Excerpt of January 26, 2017,
Trial and Sentencing Transcript

... dignity, they should step out at this point in time.
Are we ready for the jury?
MS. CAPPLEMAN: Yes, Sir.
MR. TAYLOR, JR.: Yes, Sir.
THE COURT: All right. Let’s have the jury,
please.
(Jury in at 2:21 p.m.)
THE COURT: Mr. Myers, I see with you the
papers in your hand. Are you our foreperson?
THE JUROR: Yes, sir.
THE COURT: Has the jury arrived at a verdict?
THE JUROR: Yes, we have, Your Honor.
THE COURT: Would you hand it to the bailiff,
please?

A-27

State of Florida versus Adam Frasch.
We, the jury, find as follows as to the
indictment: The defendant is guilty of first-degree
murder. So say we all this 26th day of January of
2017.
Either side wish to have the jury polled?
MR. TAYLOR, JR.: Yes, Sir.
THE COURT: All right. Polling just means I
need to confirm with each of you that this is your
individual verdict as well as the verdict of the Jury as
a as – the jury as a whole.
No. 1 Juror, is this your verdict as well as the
verdict of the jury as a whole?
THE JUROR: Yes, it is.
THE COURT: No. 2 Juror?
THE JUROR: It is.
THE COURT: No. 3 Juror?
A-28

THE JUROR: It is.
THE COURT: No. 4 Juror?
THE JUROR: It is.
THE COURT: No. 5 Juror?
THE JUROR: It is.
THE COURT: No. 6 Juror?
THE JUROR: It is, Your Honor.
THE COURT: The Jury has unanimously
confirmed the verdict as read. The verdict appears to
be in order. It will be filed.
This will conclude your service with us. We do
appreciate the time and the attention that you’ve given
us. Let me make you aware of one right that you have
as a Juror.
You have

a

right

not

to

discuss

your

deliberations. I don’t know that anyone would inquire
of you, but it is quite possible someone would inquire
A-29

of you. It’s possible they would inquire to find fault
with what you’ve done. You have every right to simply
say, I just would rather not talk about it. That doesn’t
mean you are prohibited from talking about it. If you
desire to talk about it, you may, but I want you to
know that there is nothing pressuring you to talk
about it if you think you wished to keep your
deliberations private.
We have made arrangements to get you all out
of the building and on your way, so I won’t give any
long speeches here. We just do appreciate the time and
the attention that you’ve given us. I will let you step
out with the bailiff. Have a good day.
(Jury dismissed at 2:24p.m.)
THE COURT: Any reason not to proceed to
sentencing?
MS. CAPPLEMAN: No, Your Honor.
A-30

MR. TAYLOR, JR.: You have no choice, Judge.
THE COURT: I beg your pardon?
MR. TAYLOR, JR.: I don’t believe you have any
choice.
THE COURT: I mean, there’s only one sentence
that I can impose, so I’d just think putting it off is
merely for purposes of delay. I don’t see any – I have no
discretion other than to impose a life sentence. That’s
the only legal sentence at this point in time. But, I
mean, I guess – I guess, technically he is entitled to a
presentence investigative report. I don’t know what
that would accomplish since there’s only one legal
sentence. But, anyway, I’m not trying to rush anybody,
but I don’t see any reason to waste time either.
MR. TAYLOR, JR.: No, sir. We may have some
post-trial motions, but that shouldn’t impact the
sentence.
A-31

THE COURT: All right. Give me jail credit. Do
you have jail credit?
THE CLERK: Yes. It’s 372 days.
THE COURT:

All right. Either side have

anything they wish to say? We will need a scoresheet
from you, Ms. Cappleman, although I know it won’t
accomplish much, you can submit that to me later.
MS. CAPPLEMAN: Yes, sir. There is a
statement that the family has submitted that they
would like read at the sentencing.
THE COURT: Well, you may.
MS. CAPPLEMAN: The family wanted to make
the following statement:
For us, the Frasch – well, it says, For us, the
Samira family, we hold Adam responsible for the death
of Samira. According to Samira, she was very afraid
that Adam would hurt her, because she had noticed the
A-32

presence of someone prowling in their home nights
before his (sic) death.
As Adam came to see the house, certainly she
had to tell him her fears. So, why did Adam not do
anything to avoid the worst? At least he would have
checked the surveillance cameras in their home.
Why was Samira not with him on the day of her
death when they went to the beach? Samira would not
have accepted that Adam was busy. We all know that
Adam had abducted their two girls and left with his
mistress, so why the day of her death did Adam
supposedly meet Martha en route before going to the
beach?
Samira’s body was found in the pool. Certainly,
it does not – it was not there to swim that day if she
would part with her children and her husband at the
beach. Why did Adam rush to cremate the body of
A-33

Samira?
There are so many that lead us to say that Adam
is responsible for the murder of Samira. Whether he
murdered her or he is the sponsor. And we are certain
that he could never take care of the two daughters he
had with Samira.
So I apologize for that, but, obviously, there’s a
language barrier here, so I think that’s the best we can
do on the translation.
THE

COURT:

Defense

wish

to

present

anything?
MR. TAYLOR, JR.: No, sir.
THE COURT: Stand up please, Mr. Frasch.
Based upon the jury verdict in this case, I do
adjudicate you guilty of first degree murder, sentence
you to life in prison. You do have credit for 372 days
served in jail. As required by statute, there would be
A-34

$420 costs, $100 cost of prosecution. Reduce those
amounts to civil judgment.
Does that leave anything outstanding?
MR. TAYLOR, JR.: No, sir.
MS. CAPPLEMAN: No, sir.
THE COURT: All right. Mr. Frasch, you’ll have
30 days to file a notice of appeal. If you can’t afford a
lawyer, one would be appointed to represent you. Mr.
Taylor, I trust you will discuss his appellate rights
with Mr. Frasch. Make a determination of whether you
intend to continue to represent him or whether he
needs the services of the public defender or what
exactly the attorney situation is. I trust you’ll handle
that with him.
MR. TAYLOR, JR.: Yes, Sir.
THE COURT: All right. Anything else?
MS. CAPPLEMAN: No, sir.
A-35

THE COURT: All right. We will be in recess.
(Proceedings concluded.)

A-36

IN THE CIRCUIT COURT, SECOND JUDICIAL
CIRCUIT,
IN AND FOR LEON COUNTY, FLORIDA,
CASE NO,: 14CF3426
STATE OF FLORIDA,
Plaintiff,
vs.
ADAM FRASCH,
Defendant.
______________________/
DEFENDANT’S MOTION FOR NEW TRIAL
COMES NOW the Defendant, ADAM FRASCH,
by and through undersigned counsel, and pursuant to
Rules 3.580 and 3.600, Fla. R. Crim. P. and moves this
Honorable Court for a new trial and as good grounds
would show:
1.

The verdict is contrary to law or the
A-37

weight of the evidence.
2.

The trial court abused its discretion in not

allowing the defense to withdraw a juror challenge
prior to the jury being selected or sworn.
3.

New and material evidence, which if

disclosed to the defense, would have been introduced at
trial and resulted in a different verdict. This evidence
could not, with reasonable diligence, been discovered
by the defense prior to trial.
4.

The new evidence complained of in

Paragraph 3 above, constitutes Brady material and
should have been disclosed to the defense prior to being
read into the record post verdict, and after the jury had
been discharged.
ARGUMENT
5.

But for one “alleged” confession, supposed

told by the Defendant to a 50+ times convicted felon
A-38

(Dale Folsum), this was a purely circumstantial
evidence case, and as such, the evidence did not
exclude every reasonable hypothesis of innocence. The
Defendant was out of the home of the victim by 8:00
a.m. the morning of her death. There was no competent
evidence the victim had been in the pool, much less
deceased, for more than an hour or two, perhaps only
30 minutes, pet the testimony of two experienced
medical examiners.
There was no evidence of wrinkling/pruning, or
livor or rigor mortis on the victim, further indication of
a more recent time of death, than one occurring 3+
hours before 11 a.m.
A neighbor testified he saw a strikingly similar
looking woman in the house driveway around 10:20
a.m. that morning, consistent with being in the pool for
30 minutes, when first seen by the handyman at 11:00
A-39

a.m. The evidence, thus does not exclude every other
reasonable hypothesis of innocence.
6.

However, the State. will argue this is not

a circumstantial evidence case because Folsum claims
the Defendant confessed. His story was full of holes,
did not square with evidence, and the State conceded
the “magic” golf club, which appeared in the house
more than a year after the death, was not relevant to
the crime. This came after the both experts testified
the club could not have been the murder weapon.
7.

Defendant

submits

there

was no

competent evidence from Folsum so as to take this case
out of a circumstantial evidence case, nor was there
any indieia of reliability upon which a fair and
impartial jury could have returned a guilty verdict.
The evidence was insufficient to support this guilty
verdict. Thus the verdict was contrary to the law and
A-40

the weight of the evidence.
8.

During jury selection, the defense used its

ten strikes before the State used more than three. It
became apparent a poor defense juror would be
selected, as all the State had to do was use its multiple
strikes to reach this juror. The Defendant requested he
be allowed to withdraw a previous strike, This was
discretionary with the trial judge. The Court refused
this request, stating it would skew or throw off the
juror selection choices. But the State had at least 6
strikes left at that time, and other than losing a juror
(later he vvas fhreperson), there was no way the
overall selection process would have been adversely
impacted. The defense submits, under the totality of
the circumstances, including a rapidly moving jury
selection process, it was an abuse of discretion to deny
this one strike take back request.
A-41

9.

At the conclusion of the case, after the

return of the verdict, the discharge of the jury and just
before sentencing, the State asked to read into the
record a “family” statement. No name was attributed
to the author(s) of this statement, a copy of which is
Attached hereto, marked Exhibit A, and incorporated
herein by reference. No one on the defense team knew
of this statement before it was read, and no one on the
defense team was aware of the contents of the
statement before it was read.
10.

That statement alleges there had been an

“someone prowling in their home nights before his (sic)
death.” The statement then suggests ADAM FRASCH
should have “At least ... checked the surveillance
cameras in their home.”
This may well be a Brady violation of significant
import to the defense in this case. Questions must be
A-42

answered: Who wrote the statement? When was the
State aware of the statement? Had anyone with the
prosecution team (including SAO, LCSO, FDLE
personnel) spoken with the deceased family regarding
this issue, and if so, when? Defendant submits an
evidentiary hearing is necessary in this situation,
pursuant to Rule 3.600(c) Fla. R. Crim. P.
11.

The defense is reviewing hundreds of

pages of discovery reports to see if there is any
reference to this family “concern” regarding prowlers.
The defense cannot complete a thorough review at this
time, and will supplement this filing if evidence
surfaces as to any prowler reports.
12.

Since the State effectively argued in

closing there could be no other perpetrator of this
crime, but for the Defendant, and had filed a motion in
limine seeking to preclude the defense from suggesting
A-43

otherwise (as to certain named parties), it is clear the
issue of “some other guy did it” was critical to this case.
A new trial is warranted; and Defendant so
moves.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
copy of the foregoing has been furnished via electronic
service to the Office of the State Attorney at
SA02Leon@leoncountyfl.gov; Gregory Cummings, Esq.
at GregoryCummingsEsg@gmail.com; Clyde M. Taylor
Ill, Esq. at bc@taylor-taylor-law.com; and Monica
Jordan at mljordan@lordanresearchandconsulting.com
this 6th day of February 2017.
s/ CLYDE M. TAYLOR, JR.
FL Bar No. 0129747
Taylor & Taylor, PA
2303 N. Ponce de Leon Blvd., Ste. L
A-44

St. Augustine, FL 32084
Telephone: (904) 687-1630
Email: ct@taylor-taylor-law.com
Attorney for Defendant

A-45

IN THE CIRCUIT COURT OF THE
SECOND JUDICIAL CIRCUIT, IN
FOR LEON COUNTY, FLORIDA
CASE NO.: 2014 CF 3426A
STATE OF FLORIDA,
Plaintiff,
vs.
ADAM FRASH,
Defendant.
______________________/
ORDER DENYING DEFENDANT’S MOTION FOR
NEW TRIAL
THIS cause coming onto be heard based upon
Defendant’s Motion For New Trial, filed on February
6, 2017, and the court being otherwise fully advised in
the premises, it is hereby
ORDERED AND ADJUDGED that the motion
A-46

be denied. In his motion, defendant raises three issues.
First, the Court does not find that the verdict is
contrary to law or the weight of the evidence. Second,
the Court has already ruled on the juror challenge and
sees no reason to reverse its ruling.
The third (Brady) claim is the only new issue.
The Court sees no reason to conduct an evidentiary
hearing, The defense cites to an Offhand comment in
a very confused, rambling dissertation from some
“family member”. This statement was a rough
translation. It is unlikely that the “family member”
even resides in the United States and, therefore, is not
even available to be subpoenaed. There is nothing
suggesting there is undisclosed information that
would. have resulted in a different verdict.
The defendant is advised that he has thirty (30)
days to file an appeal to this Court’s order.
A-47

DONE AND ORDERED this

23rd

day of

February, 2017, in Tallahassee, Leon County, Florida.
[signature of James C. Hankinson]
JAMES C. HANKINSON
Circuit Judge
Copies:
Georgia Cappleman, Assistant State Attorney
Clyde M. Taylor, Jr., Attorney for Defendant

A-48

